No.19-639
IN THE SUPREME COURT OF THE UNITED STATES
—o0o—
Linda Shao
Petitioner - Appellant,
vs.
Tsan-Kuen Wang,
Respondents - Appellees.
—o0o—

On Petition For A Writ Of Certiorari To the California Sixth District
Court of Appeal regarding its Opinion on June 4, 2019 in 11040977
affirming Superior Court of California, Santa Clara County Judge
Theodore Zayner's Order of March 14, 2014 made without a hearing on
the Remittitur dated January 27, .2012 in. H035194, an appeal from
Judge Edward Davila's Order of September 2009 (S256743 denied
review on August 14, 2019)
PROOF OF SERVICE FOR REQUEST FOR RECUSAL OF CHIEF JUSTICE
JOHN G. ROBERTS,JUSTICE CLARENCE THOMAS, JUSTICE RUTH BADER
GINSBURG, JUSTICE SAMUEL ALITAAILISTIC..E STEPHEN
BREYER, JUSTICE SONIA SOTOMAYA7 4STICE ELENA KAGAN
YI TAI SHAO, ESQ. .4-4,422:7).)w
SHAO LAW FIRM, PC
4900 Hopyard. Road, Ste. 100
Pleasanton, CA 94588-7101
Telephone: (408) 873-3888
FAX: (408) 418-4070
Email: attorneyshao@aol.com

RECEIVED
JAN 9 2020
LURK

SUPREME COUR
THE U S.

PROOF OF SERVICE
I, Yi Tai Shao, declare that:
I am over age of 18. My business address is at 4900 Hopyard Road, Ste. 100; Pleasanton,
CA 94588-7101. On or about December 16, 2019, as the representative for a juridical
person of SHAO LAW FIRM, PC, I served the REQUEST FOR RECUSAL
Via Truefiling to
Court of Appeal, 6th District; 333 W. Santa Clara. Street, 10th Floor; San Jose, CA 95113
California Supreme Court; 350 McAllister Street; San Francisco, California
(By first) I prepared the mail, sealed the envelop and sent for first mail at the U. S. Postal
Office located in Hayward, California to the following persons:
David Sussman, Esq., 95 S. Market Street, Ste. 410; San Jose, CA 95113
Solicitor General of the U.S., Room 5614, Department of Justice, 950 Pennsylvania
Avenue, N.W., Washington, D.C. 20530-0001.
I declare under penalty of perjury under the laws of the United States that the foregoing
is true and correct.
Dated: December 16, 2019
/5/

at 0 7

S1'6

R 0 (A. Zt

t

6/ 2 9

(

